<html>
<title> - UNMANNED AERIAL VEHICLES: COMMERCIAL APPLICATIONS AND PUBLIC POLICY IMPLICATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                       UNMANNED AERIAL VEHICLES:
                      COMMERCIAL APPLICATIONS AND
                       PUBLIC POLICY IMPLICATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     COURTS, INTELLECTUAL PROPERTY,
                            AND THE INTERNET

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2015

                               __________

                           Serial No. 114-42

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
                       
                       
                       
________________________________________________________________________________________                       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a>  
                       
                       
                       
                       
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

    Subcommittee on Courts, Intellectual Property, and the Internet

                 DARRELL E. ISSA, California, Chairman

                  DOUG COLLINS, Georgia, Vice-Chairman

F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
Wisconsin                            JUDY CHU, California
LAMAR S. SMITH, Texas                TED DEUTCH, Florida
STEVE CHABOT, Ohio                   KAREN BASS, California
J. RANDY FORBES, Virginia            CEDRIC RICHMOND, Louisiana
TRENT FRANKS, Arizona                SUZAN DelBENE, Washington
JIM JORDAN, Ohio                     HAKEEM JEFFRIES, New York
TED POE, Texas                       DAVID N. CICILLINE, Rhode Island
JASON CHAFFETZ, Utah                 SCOTT PETERS, California
TOM MARINO, Pennsylvania             ZOE LOFGREN, California
BLAKE FARENTHOLD, Texas              STEVE COHEN, Tennessee
RON DeSANTIS, Florida                HENRY C. ``HANK'' JOHNSON, Jr.,
MIMI WALTERS, California               Georgia

                       Joe Keeley, Chief Counsel

                    Jason Everett, Minority Counsel
                            
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 10, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Darrell E. Issa, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on Courts, 
  Intellectual Property, and the Internet........................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on 
  Courts, Intellectual Property, and the Internet................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     5

                               WITNESSES

Brian Wynne, President and CEO, Association for Unmanned Vehicle 
  Systems International
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Chris Calabrese, Vice President for Policy, Center for Democracy 
  & Technology
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
Chris Polychron, 2015 President, National Association of 
  Realtors
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29
Tom Karol, General Counsel--Federal, National Association of 
  Mutual Insurance Companies
  Oral Testimony.................................................    38
  Prepared Statement.............................................    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     5

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Motion Picture Association of America..    71

 
  UNMANNED AERIAL VEHICLES: COMMERCIAL APPLICATIONS AND PUBLIC POLICY 
                              IMPLICATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 2015

                        House of Representatives

            Subcommittee on Courts, Intellectual Property, 
                            and the Internet

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 3:02 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Darrell 
E. Issa (Chairman of the Subcommittee) presiding.
    Present: Representatives Issa, Goodlatte, Collins, Chabot, 
Forbes, Poe, Chaffetz, Marino, Nadler, Chu, Richmond, DelBene, 
Cicilline, Peters, Lofgren, and Johnson.
    Staff Present: (Majority) Vishal Amin, Senior Counsel; Eric 
Bagwell, Clerk; and (Minority) David Greengrass, Counsel.
    Mr. Issa. The Committee will come to order. Members will be 
joining us throughout the next few minutes, but we will get 
started because we have a vote likely at 4:30 p.m. And as a 
result, as I previously announced, our goal is to get all the 
statements in and questions in so that we not hold you over 
into the dinner hour.
    I want to welcome everyone here today. Today's hearing is 
on Unmanned Aerial Vehicles: Commercial Applications and Public 
Policy Implications. And unspoken very clearly in that title is 
the rights and responsibilities of individuals and the people 
who are underneath those aerial vehicles.
    Today, we will discuss commercial applications for unmanned 
aerial vehicles, otherwise known as UAVs or drones, and the 
potential public policy implications. It is my hope that this 
and future hearings on new technologies will educate Members so 
they have a more informed understanding of the policy decisions 
before us.
    There is significant potential for UAV markets. Some of 
that potential has already been realized on the battlefields of 
Iraq and Afghanistan and in providing safe observation of 
hurricanes and other activities around the world. But today, 
drones--drones as small and simple as this few hundred dollar 
one up to drones costing $18,000 and more are commercially 
available. These drones are often used in novel ways never 
possible before.
    This includes and is not limited to one of our testimony 
today, which will talk about the significance of unmanned 
aerial vehicles for real estate. The ability to know and see 
the property you may buy while you are, in fact, thousands of 
miles away has been a dream for a long time. And until 
inexpensive unmanned aerial vehicles became available with 
high-performance cameras, it was impossible to demonstrate from 
the air how you would get there, what it looked like, the 
condition of it, or even what the backyard properly looked like 
in a way in which the potential buyer could appreciate it well 
before coming to see the property.
    Companies like Google, Facebook, and Amazon are investing 
in developing new drone technologies that have the potential to 
change how we receive Internet service, various goods, and even 
how we monitor and access remote places around the world or 
disaster areas. Responsible drone use across industries, 
including Internet services, movie and news industries, sports 
coverage, and more are part of daily operations.
    As drone technology has become rapidly more prevalent over 
the past few years, both the Government and private sector have 
been faced with challenging questions over privacy, airspace 
access, and more. Such a debate broadly echoes the theme that 
this Committee sees in new technology. How do we allow new, 
innovative technologies to come to market and advance economic 
interests without stifling private industries through outdated 
or inflexible regulations?
    UAV technology has the potential to deliver genuine 
services to society, and at the same time, the public and 
private sectors must work together to protect consumers' safety 
and privacy. Such a cooperation should focus on flexibility, 
and I am interested to hear from our witnesses suggestions on 
how we can balance the needs of consumers and technology 
developers.
    Before I conclude and yield to the Ranking Member, I want 
to say on a very personal basis that I have seen these vehicles 
operate. I have had the opportunity to operate some of the 
small vehicles. I have seen them operate as long ago as the 
beginning of the Gulf War in 2001.
    These and their consumer smaller versions represent a great 
opportunity, one that more than a decade--or not more than a 
decade, 6 years ago, Ray LaHood, then the brand-new Secretary 
of Transportation, said one of his priorities to accomplish 
during his tenure. He pledge to work on the FAA to develop 
standards for safety and deployability not just for these 
smaller ones like the one I held up earlier, but, in fact, for 
the Global Hawk, the Predator, and other large-scale UAVs.
    He is a dear friend of mine, but the FAA let us down. And 
today, as a private pilot, I find it reprehensible that we are, 
in fact, constantly talking about the danger of very small ones 
while the FAA has essentially punted on their responsibility to 
set standards.
    The FAA is not within this Committee's jurisdiction, and we 
appreciate that. But at the same time, we understand that the 
possibilities for these vehicles flying typically below 400 
feet cannot be stifled by just the inaction of the FAA.
    And so, with that, I look forward to my Ranking Member's 
statement and our witnesses, and I yield to the gentleman from 
New York.
    Mr. Nadler. Thank you, Mr. Chairman.
    Today, we examine another emerging technology, unmanned 
aerial vehicles, UAVS or, as they are commonly referred to, 
drones. Like the Internet of Things, which was the subject of a 
recent hearing in our Subcommittee, drone technology holds 
great promise but also raises significant questions of privacy 
and security.
    Today's hearing is not about our military's use of drones 
overseas, nor are we considering drone use by domestic law 
enforcement. Those are important topics that raise many 
questions to be discussed at another time. Our focus today is 
on the commercial application of drones in the United States, 
which raises its own set of important issues.
    Once upon a time, if you talked about a remote controlled 
aircraft, you conjured up images of a child playing with his or 
her toy airplane in the backyard or in the park. The plane was 
fairly small, had a limited range, and wouldn't cause much 
damage except to itself if it fell to the ground or crashed 
onto your roof. This was hardly something that would concern 
Congress.
    But we are now entering a very different world, where 
today's remote controlled aircraft may be as heavy as a few 
hundred pounds, can travel many miles, and might be equipped 
with sophisticated cameras and sensors, sending images and data 
to your computer in real time. In some cases, the aircraft 
might not even be remotely controlled. It might be following a 
preprogrammed flight path.
    And the operator isn't a child in the backyard. It may be a 
major company delivering packages, monitoring farm land, or 
reporting on traffic jams. How we address the privacy and 
safety implications of this new kind of unmanned aircraft is 
very much the province of Congress, and I hope this hearing 
will help us answer some of the important questions raised by 
the commercial use of drones.
    Drone technology has the potential to unleash a wave of 
innovation across numerous industries. For example, real estate 
agents can provide aerial views of prospective properties. 
Insurance adjusters can quickly survey flood damage over a wide 
area.
    Companies like Amazon hope to deliver packages by air 
within 30 minutes, and photographers and film directors can 
take footage of their subjects from unique angles. An Israeli 
company recently developed a drone that can quickly deliver a 
defibrillator to the site of a heart attack victim in the 
street, along with a camera and a microphone so that the 
operator can instruct a bystander on how to use the drone to 
save the person's life while the ambulance and the medical 
technicians are still on their way.
    Meanwhile, entrepreneurs are launching companies that offer 
drone services for hire or act as brokers between drone 
operators and businesses that need their services. The 
possibilities for innovation are almost endless, but so are the 
questions that these services can raise.
    Most critically, how can we assure individuals that their 
privacy will be protected as these unmanned aircraft fly 
overhead? Drones have the ability to collect massive amounts of 
data regarding the people and places below. What sort of notice 
should be given to the individuals whose data is collected, 
whose backyard may be surveilled?
    What rights should they have to control how this data is 
stored, shared, and used? And what sorts of security protocols 
are in place to protect against this data being compromised by 
hackers?
    Drones also raise significant safety concerns. We are all 
familiar with the drone that accidentally crashed into the 
White House lawn in January. Just last week, a drone crashed 
into the U.S. Open tennis tournament. And last month, a college 
student mounted a handgun on a drone and posted a video on 
YouTube of the handgun firing live ammunition from the flying 
drone.
    Although each of these incidents involved privately 
operated drones, they highlight the danger that can be posed by 
misuse of this technology. Not only must we protect against 
drones being used for malicious purposes, we must also ensure 
that drones are operated safely and do not interfere with other 
objects in the sky.
    In addition, we must seek to minimize the noise or other 
nuisance that drones may present to individuals on the ground 
as they pass by. Recognizing the growing potential of drone 
technology, in 2012, Congress called on the FAA to develop a 
plan to safely integrate civil use of unmanned aerial vehicles 
into the National Airspace System.
    The FAA has yet to complete this rulemaking, but its 
proposed rule naturally focuses on issues of safety in the 
skies as that is the agency's domain rather than on privacy 
concerns. Therefore, in February, President Obama directed the 
National Telecommunications and Information Administration to 
convene a multi-stakeholder process to develop and communicate 
best practices regarding privacy, civil rights, and civil 
liberties.
    But these best practices would be merely voluntary in 
nature. Given the vast array of issues raised by the commercial 
application of drones, it would seem that a mandatory 
regulatory structure is warranted.
    We should also consider where such regulatory power should 
lie. For example, the FAA regulates the safety of objects in 
flight, while the Federal Communications Commission regulates 
the airwaves through which drones are controlled. The Federal 
Trade Commission plays a strong role in protecting consumer 
privacy, while the Departments of Justice and Homeland Security 
take the lead in protecting our security.
    These agencies are one problem, and they are in addition to 
the many laws that have been passed on the State level 
concerning drones. I hope our witnesses today will help us sort 
through what a proper regulatory scheme might look like for 
drones and commercial use and who should administer these laws 
and regulations.
    Despite the many potential benefits of drone technology, 
there are too many questions that must be answered before we 
can fully embrace it for commercial use.
    I appreciate the Chairman calling this hearing so that we 
can begin a thoughtful consideration of these important issues. 
I thank you, and I yield back the balance of my time.
    Mr. Issa. Thank you, Mr. Nadler.
    I would now like to recognize the Chairman of the full 
Committee, Chairman Bob Goodlatte of Virginia, for his opening 
statement.
    Mr. Goodlatte. Well, thank you, Mr. Chairman. I appreciate 
your holding this hearing.
    And today, we are here to learn more about the commercial 
applications and policy implications of unmanned aerial 
vehicles. This new area of technology is of particular interest 
to the Judiciary Committee, considering our longstanding 
jurisdiction when it comes to issues pertaining to intellectual 
property and security.
    UAVs have the opportunity to transform a wide range of 
industries from farmers monitoring their crops to realtors 
trying to sell a home, to utility companies monitoring power 
lines, to delivering emergency supplies, to changing the way we 
view sports or film movies. As this Committee continues to 
study this new technology, it is important for us to keep in 
mind the issues surrounding UAVs and be cognizant of their 
effects on public policy today and in the future.
    In particular, we need to examine the privacy and security 
implications of this technology and look into the security and 
privacy measures that industry is building now and the measures 
they intend to implement as open standards are developed. I am 
hopeful that this new technology will help fuel the engine of 
American innovation, prosperity, and creativity, and I think we 
have a great panel with us here today, and I look forward to 
hearing from our witnesses.
    I yield back, Mr. Chairman. Thank you.
    Mr. Issa. I thank the gentleman.
    All Members, including the Ranking Member, will have their 
entire opening statements placed in the record.
    Without objection, so ordered.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary
    The commercial use of unmanned aerial vehicles--or drones--presents 
substantial public policy considerations but also promises potential 
benefits.
    As we hear from today's witnesses, I would like for us to consider 
the following points.
    To begin with, unmanned aerial vehicles present potentially serious 
privacy, safety, and security issues.
    I am already concerned about law enforcement's use of drones for 
surveillance purposes.
    But widely-available drones sold commercially present different but 
just as important privacy implications.
    These drones have the capability to violate the expected privacy of 
individuals by peeking into windows and take photographs.
    Drones can collect data through identification technologies, such 
as automated license plate scanners and facial-recognition software, 
that could be used for surveillance purposes.
    Not only do drones raise privacy concerns, they also can create 
safety and security issues.
    Just last week, for example, a drone crashed into the stands where 
thousands were viewing the U.S. Open Tennis Championships. Fortunately, 
no one was injured.
    Earlier this year, drones on two separate occasions crashed onto or 
were flown over the White House grounds presenting serious national 
security concerns.
    There have also been reports of drones being weaponized, and the 
resulting shooting down of drones by individuals protecting their 
privacy or finding the drones a nuisance.
    And, there have been numerous reports of drones violating the 
restricted airspace of commercial and military airplanes.
    So, as a starting point, we must protect against the threats to 
privacy and public safety presented by the use and proliferation of 
commercial drones and, to that end, have a thorough discussion on how 
the government can best achieve those goals.
    For example, Congress could consider Representatives Poe and 
Lofgren's H.R. 1835, the Preserving American Privacy Act, and 
Representative Welch's H.R. 1229, the Drone Aircraft Privacy and 
Transparency Act. These bills attempt to address privacy concerns.
    At the same time, I believe Congress should consider ways to foster 
the development of the commercial use of unmanned aerial vehicles as 
this industry could play a major role in helping to grow our Nation's 
economy and create new jobs.
    The technologies inherent with drones provide expansive 
opportunities for innovators and investors.
    It is estimated, for instance, that within three years after drones 
are integrated into the national airspace, the unmanned aircraft 
industry could generate more than $16 billion in value to our Nation's 
economy.
    This, in turn, could create thousands of new jobs.
    Finally, I am also particularly interested in hearing how consumers 
could benefit from unmanned aerial vehicles.
    For example, realtors are utilizing unmanned aerial vehicles to 
survey land and photograph properties to provide more informative 
perspectives for potential homeowners and investors.
    The news media are using drones to record events that are too 
dangerous for humans to cover, such as the wildfires that have been 
ravishing the Western U.S.
    And, it is hoped that one day high altitude drones that can stay 
aloft for significant time periods will provide Internet access to 
consumers living in remote areas who otherwise would lack such access.
    We need to strike a balance that protects the privacy, safety, and 
security of individuals while encouraging the legitimate and commercial 
use of unmanned aerial vehicles.
    I look forward to hearing from today's witnesses.
                               __________

    Mr. Issa. We now go to our distinguished panel of 
witnesses. For all the witnesses, your written statements have 
been entered into the record in their entirety, and I ask you 
to please summarize within 5 minutes or less your opening 
statements.
    To help us stay within the time limit, you will see the 
light on the table. My former Chairman of another Committee, 
Mr. Ed Towns of New York, often said there is nothing easier 
for us to understand than the red, green, and yellow light. 
Green means keep talking if you want to, yellow means go 
faster, and red means stop. So having quoted my predecessor on 
another Committee, I would ask you to please abide by the Ed 
Towns rule.
    Pursuant to the Committee's rules, would you please all 
rise to take the oath and raise your right hand?
    Thank you.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing, 
but the truth?
    Thank you. Please be seated.
    Let the record indicate that all the witnesses answered in 
the affirmative.
    Our witnesses today include Mr. Bryan Wynne, President and 
CEO of Association of Unmanned Vehicle Systems International; 
Mr. Chris Calabrese, Vice President of Policy at the Center for 
Democracy & Technology; Mr. Chris Polychron, the 2015 President 
of the National Association of Realtors; and Mr. Tom Karol, 
General Counsel at the National Association of Mutual Insurance 
Companies.
    And with that, I would now recognize for 5 minutes Mr. 
Wynne.

 TESTIMONY OF BRIAN WYNNE, PRESIDENT AND CEO, ASSOCIATION FOR 
             UNMANNED VEHICLE SYSTEMS INTERNATIONAL

    Mr. Wynne. Chairman Issa, I thank you very much. Ranking 
Member Nadler and Members of the Subcommittee, I appreciate 
very much the opportunity to participate in today's hearing 
regarding unmanned aircraft systems.
    I'm speaking on behalf of the Association for Unmanned 
Vehicle Systems International, the world's largest nonprofit 
organization devoted exclusively to advancing the unmanned 
systems and robotics community.
    The UAS industry is poised to be one of the fastest growing 
in American history. During the first decade following UAS 
integration into the National Airspace System, the industry 
will create more than 100,000 new jobs and provide more than 
$82 billion in economic impact. From inspecting infrastructure 
to filming movies, the applications of UAS are virtually 
limitless, enabling researchers, public agencies, and 
businesses to do things more safely and cost effectively.
    As with any emerging technology, there are public policy 
issues that can help or hinder its growth. Let me explain.
    We are less than 3 weeks away from the congressionally 
mandated deadline of September 30th for the integration of UAS 
international airspace. The FAA has had more than 3 years to 
put a small UAS rule in place. There is tremendous pent-up 
demand for commercial UAS operations, yet the FAA isn't 
expected to meet this deadline.
    Until the small UAS rule is finalized, the primary way 
commercial operators may fly is through an exemption. That 
process started in May of 2014. The FAA has received more than 
2,700 requests and granted more than 1,400 exemptions.
    According to AUVSI's report on the first 1,000 exemptions, 
businesses in more than 25 industries representing more than 
600,000 jobs and $500 billion in economic impact are now using 
UAS technology. And we've outlined the top 10 States with 
exemptions on the screen before you so you can see how they're 
distributed. Just the top 10.
    For example, San Diego Gas and Electric provides energy 
services to 3.4 million people in southern California. It plans 
to use UAS to help inspect 26,000 miles of power lines, 
improving safety and efficiency.
    The Associated General Contractors of America represents 
26,000 member companies in the construction industry. Some are 
using UAS to improve project planning and execution. These are 
only a couple of examples, and you'll hear from more industries 
on the panel.
    It's easy to see the far-reaching benefits UAS will add. At 
the same time, the absence of Federal regulations means many 
businesses remain grounded. The current system of case-by-case 
approvals isn't a long-term solution.
    The lack of regulations--regulations isn't just limiting 
economic potential of this industry, it's also causing States 
and municipalities to fill the void with laws they may not have 
the authority to enforce. The most recent example is 
California's Senate Bill 142, which would have restricted UAS 
from flying below 350 feet over private property if it were not 
for Governor Brown's veto last night.
    While my industry supports the safe, nonintrusive use of 
UAS technology, SB 142 would have created inconsistencies with 
Federal law. Only the FAA can regulate airspace. States and 
municipalities cannot. According to the U.S. Code, and I quote, 
``The United States Government has exclusive sovereignty of 
airspace of the United States.''
    It's critical for the Federal Government to assert its 
preemptive authority over the national airspace. In the absence 
of FAA action, we may soon be facing a legal quagmire. 
Challenges to questionable State laws will tie up the courts 
and at significant expense to taxpayers.
    If the FAA feels it needs clarification of its authority, I 
would urge Congress to provide such clarity and legislatively 
settle this issue. Putting the small UAS rules in place will 
also help increase the safety of the airspace. It'll provide 
the necessary tools and training to create a culture of safety 
around the use of UAS.
    As more commercial UAS operators are certified, they'll 
join the longstanding aviation community, which I've been part 
of for more than 20 years as an aircraft owner and instrument-
rated general aviation pilot. They will foster the aviation 
community's principles of airmanship and self-policing to 
promote safety and discourage careless and reckless operations.
    Because safety is essential for all users, AUVSI, in 
partnership with the Academy of Model Aeronautics and the FAA, 
last year developed the Know Before You Fly campaign to educate 
newcomers to the UAS, and I'd be pleased to answer more 
questions about this and other matters of interest to the 
Subcommittee.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wynne follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Issa. Thank you.
    Mr. Calabrese? Calabrese, I'm sorry.

TESTIMONY OF CHRIS CALABRESE, VICE PRESIDENT FOR POLICY, CENTER 
                   FOR DEMOCRACY & TECHNOLOGY

    Mr. Calabrese. Thank you, Chairman Issa. Oh.
    Mr. Issa. Push the button.
    Mr. Calabrese. Thank you, Chairman Issa, Ranking Member 
Nadler, and Members of the Committee.
    I appreciate the opportunity to testify before you today on 
unmanned aircraft systems, or drones.
    I'm Chris Calabrese. I'm the vice president for policy at 
the Center for Democracy and Technology.
    CDT is a nonpartisan, nonprofit technology policy advocacy 
organization dedicated to protecting civil liberties, such as 
privacy and free speech while enabling Government agencies to 
provide security in the private sector to innovate.
    There are three key realities that should drive 
congressional action around drones. The first is that unmanned 
aircraft systems are a promising technology but have the 
potential to erode civil liberties through pervasive 
surveillance.
    The second is that current laws do not provide strong 
privacy protections from Government or private unmanned 
aircraft invasions. This lack of privacy protections undermines 
public trust in drone technology, which holds back the 
industry.
    Third, to earn public acceptance of drones, both Government 
and the UAS industry should fully address civil liberties 
issues through a combination of legislation and an industry 
code of conduct.
    CDT hopes and believes that UAS can become a valuable tool 
for commerce, journalism, disaster relief, scientific research, 
and more. However, privacy rules are a necessary predicate to 
all of this.
    Without baseline standards, we will continue to see State 
restricts on drone use as well as public distrust. It is 
telling that in a recent Pew poll, almost two-thirds of the 
public thought personal and commercial drone development would 
be a negative in spite of being generally positive about 
technology overall.
    Drones represent a new privacy threat because they are 
inexpensive, can stay in the air longer, and surveil previously 
private locations. In other words, UAS have the potential to be 
persistent, pervasive, and cheap.
    Our fear is that law enforcement might establish a ``drone 
dragnet'' that constantly tracks individuals in popular--
populated outdoor areas, chilling the public's right to 
assemble and free association. At the same time, a network of 
commercial unmanned aircraft could constantly record video 
footage of anyone who steps out of their home, even if the 
individual remains on private property.
    UAS can also be equipped with a variety of sensors, such as 
cell phone trackers, enabling even greater tracking. While this 
scenario is clearly not going to happen tomorrow, there are no 
existing laws that would prevent it from happening, and the 
Government does not--or the public does not yet trust the 
Government or the UAS industry to do anything--or excuse me, to 
do enough to prevent that reality.
    When it comes to Government UAS, CDT believes that 
prolonged physical surveillance of individuals in public places 
violates Fourth Amendment principles. However, the Supreme 
Court has repeatedly said that Americans have no expectation of 
privacy from aerial surveillance.
    The court even held that the Fourth Amendment is not 
violated when a police helicopter looks into the interior of a 
private building through a hole in the ceiling without a 
warrant. Bottom line, there is very little privacy protection 
from Government UAS even outdoors.
    Law enforcement use is the most acute public concern with 
UAS. To address this public concern, Congress should pass 
legislation that, among other things, establishes due process 
protections for UAS. And while I know that's not this 
Committee's jurisdiction, it's certainly something Judiciary 
Committee Members are concerned with. Note--and the most 
important thing is that that legislation be accompanied by a 
warrant.
    When it comes to private sector UAS use, common law privacy 
torts provide Americans with some protection outside of the 
home, but only if the conduct is highly offensive to a 
reasonable person. However, any Government regulation of 
private UAS must not violate the First Amendment and Americans' 
right to take photographs in public.
    An industry code of conduct would help provide privacy 
protections from UAS where direct regulation cannot. But it 
would only be effective if the industry agrees to adopt a 
strong and enforceable code.
    This code should establish reasonable limits on UAS 
collection and retention of personally identifiable 
information. It should create a publicly accessible registry 
that includes data collection practices and--and we should 
establish cybersecurity standards to prevent hijacking or 
unauthorized damage to UAS systems.
    Thank you for holding this hearing. I appreciate the 
opportunity to testify.
    [The prepared statement of Mr. Calabrese follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
               
                               __________
    Mr. Issa. Thank you.
    Mr. Polychron?

    TESTIMONY OF CHRIS POLYCHRON, 2015 PRESIDENT, NATIONAL 
                    ASSOCIATION OF REALTORS

    Mr. Polychron. Chairman Issa and Members of the 
Subcommittee, my name is Chris Polychron, and I'm the 2015 
President of the National Association of Realtors.
    I've been a realtor for 28 years. I'm an executive broker 
with First Choice Realty in Hot Springs, Arkansas. I specialize 
in both residential and commercial brokerage.
    NAR is America's largest trade association. Realtors are 
involved in all aspects of residential and commercial 
brokerage. NAR is America's largest trade association. Realtors 
are involved, again, in all aspects of commercial real estate.
    Realtors are excited about the prospect of using unmanned 
aircrafts, or UAS, in their businesses, including using UASs 
for aerial photos, videos, and property inspections. Realtors 
are early adopters of new technology.
    In fact, a realtor from Arizona was the first to 
successfully apply for and receive a Section 333 waiver. A 2015 
AUVSI study determined that of the first 500 waivers, real 
estate was the leading industry, making up over a quarter of 
all waivers.
    Commercial use of UASs has the potential to create new jobs 
and businesses specializing in their uses. NAR is excited about 
the possibilities, but also understands the need to balance 
them with protecting the privacy and safety of citizens and the 
national airspace.
    As end-users of this technology, realtors want clear 
regulations that permit the commercial use of UASs in a way 
that is affordable and safe on the ground and in the national 
airspace. The potential applications for UASs in real estate 
are plentiful and will grow.
    Currently, UASs can provide the opportunity for real estate 
practitioners to offer photographs and videos of properties 
that would otherwise be difficult to obtain. Using UAS 
technology to do the same thing is typically less expensive, 
less time-consuming, and less dangerous for everyone involved.
    As UAS technology progresses, the type of applications will 
grow as well. Real estate practitioners are excited about the 
potential to use the technology to conduct property 
inspections, appraisals, insurance valuations, and land 
surveys. And most importantly, to allow consumers to make 
better-informed decisions.
    Citizens' safety and privacy are a primary concern of 
realtors, and we truly appreciate the steps that the FAA and 
the National Telecommunications and Information Administration 
have taken to protect these values. This requires clear 
regulations and strong education efforts for operators and 
their clients. Realtors are committed to being safe and 
responsible UAS end-users.
    NAR will continue educating its members about the 
importance of safe UAS operations. NAR's participation in the 
Know Before You Fly safety campaign is merely one part of NAR's 
efforts to talk about UAS safety with being a key priority. 
Through seminars material and Web site content, NAR has already 
informed its members about the safety precautions necessary 
when using UASs.
    NAR is pleased that the FAA is moving forward with its 
rulemaking. NAR believes the proposed rules' risk and safety-
based approach is common sense and a reasonable one, and NAR 
supports the FAA's attempt to address different levels of risk 
posed by different sizes and uses of UAS technology. A ``one 
size fits all'' approach will not effectively integrate 
technology as diverse as UAS into a complex airspace, which is 
why we are pleased that FAA has proposed a micro UAS category.
    UAS will continue to evolve and will require flexible 
regulations in order for it to meet their full potential. NAR 
is committed to working with the FAA to create a culture of 
safety surrounding the use of UAS while still enabling users to 
easily use UASs.
    NAR will continue to educate members on safety and privacy 
issues surrounding UAS operations, and we look forward to 
working together with lawmakers on this as well.
    Thank you for the opportunity to testify, and I, too, look 
forward to any questions.
    [The prepared statement of Mr. Polychron follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
                               __________
    Mr. Issa. Thank you.
    Mr. Karol?

  TESTIMONY OF TOM KAROL, GENERAL COUNSEL--FEDERAL, NATIONAL 
           ASSOCIATION OF MUTUAL INSURANCE COMPANIES

    Mr. Karol. Thank you, Chairman Issa, Ranking Member Nadler, 
and Members of the Subcommittee.
    On behalf of the National Association----
    Mr. Issa. If you could----
    Mr. Karol. Sorry.
    Mr. Issa. Yeah, add a little mike and pull it, pull it a 
little closer, too. Perfect.
    Mr. Karol. Thank you, Chairman Issa, Ranking Member Nadler, 
and Members of the Subcommittee, on behalf of the National 
Association of Mutual Insurance Companies, for the opportunity 
to testify today.
    NAMIC is the largest and most diverse property casualty 
trade association in the Nation with more than 1,300 property 
casualty insurance companies. NAMIC members serve more than 135 
million auto, home, and business policyholders with more than 
$208 billion in premiums, accounting for 48 percent of the 
automobile/homeowners market and 33 percent of the business 
insurance market.
    The development of commercial UAS is accelerating. More and 
more sectors are contemplating the use of UAS, but regulations 
and laws in the United States have not kept up. NAMIC believes 
a reasonable, effective, and efficient regulation of the 
commercial use of UAS is not only possible, but should be a 
primary goal of policymakers in all levels of government.
    NAMIC members themselves are exploring the use of UAS to 
help appraise property, evaluate risk, and assess damage more 
quickly and accurately for policyholders. UAS can significantly 
reduce, if not eliminate, the dangers inherent in important 
tasks that our insurance personnels now put themselves in 
precarious positions, including roof inspections, damage 
assessments, and disaster response.
    A number of companies have already obtained Section 333 
exemptions for insurance services from the Federal Aviation 
Administration. Additionally, NAMIC has had very productive 
meetings with the FAA in exploring the use of UAS in disaster 
situations, where the speed of processing and payment is 
paramount to victims of the disaster.
    At present, however, Federal and State UAS restrictions can 
limit, if not preclude, practical UAS by insurance companies. 
Our consumers have also asked NAMIC members about providing 
insurance coverage for their personal and commercial use of 
UAS. Insurance coverage for both the UAS itself and liability 
for any damage or loss are key parts of responsible commercial 
use.
    While many insurance companies are willing, few now offer 
such coverage. This is primarily due to the lack of legal and 
regulatory clarity at all government levels. Insurance 
contracts need to comport with Federal, State, and local law 
and regulations, which are presently in a state of flux. 
Insurance contracts that address liability and compensation 
depend on civil law and judicial determinations, which may or 
may not apply to commercial UAS usage.
    Until standards of UAS liability are better defined, it 
will be extremely difficult for insurance companies to 
understand and provide such risks. Furthermore, these standards 
must be integrated into an existing system of privacy and 
property rights at the appropriate Federal and State and local 
level.
    The question of liability may seem fairly close if a UAS 
crashes into a house or a person, but basic questions about 
property, privacy, and negligence need to be resolved for NAMIC 
members to understand the risks, underwrite the coverage, and 
price policies for those coverages.
    For example, if a UAS flies on your lawn, at what level do 
you consider that UAS to be trespassing upon your property? If 
a UAS is flying in your backyard and you or your family feel 
threatened, can you hit it with a baseball bat or a 9-iron?
    In making decisions concerning underwriting risks and 
paying claims related to UAS, it will be critical to understand 
the application of specific torts as well as the State and 
Federal laws that can permit UAS use and/or generate lawsuits 
or fines against a UAS.
    For example, concerning trespass and personal injury 
liability, an FAA designation of UAS navigable airspace will 
greatly inhibit, if not preclude, allegations that a UAS in 
that airspace trespassed on private property or violated 
privacy. The FAA has opined that UAS navigable airspace extends 
from the ground up, which could practically eliminate private 
property rights. It could also eliminate State jurisdiction 
over UAS.
    California legislature, on the other hand, has recently 
passed a law that defines a UAS flight of less than 350 feet 
over private property as trespassing.
    While certain legal questions remain surrounding UAS damage 
and injury, there is potential liability for harm from even the 
smallest UAS. Among the host of other issues, it will be 
important to address the question regarding the duties of a UAS 
operator to limit the foreseeable risk to others.
    In conclusion, there will always be risks associated with 
the commercial use of UAS. The FAA's issuance of final rules on 
small UAS will eliminate some of the more significant barriers 
for UAS insurance at the Federal level. However, NAMIC 
members--for NAMIC members to provide comprehensive liability 
coverage for this emerging area, it will require the further 
development of Federal, State, and local regulations, as well 
as standards of liability, negligence, and property rights.
    NAMIC is committed to working with Federal, State, and 
local regulators in an effort to promote responsible UAS 
regulatory developments that protects aircraft, people, 
business, and property. As UAS regulations and civil liability 
standards evolve, NAMIC will work to ensure the development of 
regulations provide for the necessary clarity and breadth that 
its members need to serve and protect the policyholders.
    Again, on behalf of the more than 1,300 members of NAMIC, I 
thank you for the opportunity to testify today and look forward 
to any questions you may have.
    [The prepared statement of Mr. Karol follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                               __________
    Mr. Issa. Thank you.
    And before I recognize the Ranking Member, do you want to 
clarify the status of that law in California?
    Mr. Karol. I believe it was vetoed by Governor----
    Mr. Issa. That is correct. It was vetoed. So it was 
rejected by Governor Brown last night.
    I now take have the pleasure of----
    Voice. Are you sure?
    Mr. Issa. Yeah. They do those things at night in 
California. We work all the time.
    Now I recognize the gentleman from New York, and it was 
definitely night in New York when he did it, for 5 minutes.
    Mr. Nadler. Well, thank you very much.
    Mr. Wynne, you make a strong argument that the FAA's 
proposed rule regarding drones should be enacted without delay. 
But the FAA's proposal focuses on safety in the skies rather 
than on the privacy implications of the vehicles they would 
regulate. Do you think there is also a role for Government 
regulation of the data that may be collected by the drones?
    Mr. Wynne. Absolutely, sir. I think that those regulations 
also need to apply to body cameras and to license plate readers 
and all kinds of other technologies. There's nothing specific 
about drones, which are just platforms for data collection 
that--that----
    Mr. Nadler. Do you think they should be the same 
regulations?
    Mr. Wynne. I beg your pardon?
    Mr. Nadler. They should be the same regulations, regardless 
of the platform?
    Mr. Wynne. I think we have this problem. We're all in favor 
of privacy, and it's in our code of conduct. So the question is 
how do we do that in a way that's technology neutral and that 
it actually doesn't inhibit this technology?
    Mr. Nadler. But if--if I am wearing a body camera, I can't 
enter your backyard. A drone can surveil--can engage in 
surveillance of your backyard. So you don't think that it might 
be necessary to have somewhat different regulations?
    Mr. Wynne. Well, forgive me, sir. I was trying to address 
your question about data retention and such.
    Mr. Nadler. Oh, okay.
    Mr. Wynne. I think--I think the question--you know, I 
have--actually, the partner in my airplane is chief of police 
in Arlington County, and this is the question that we talk 
about a good deal. The retention of the data, the protection of 
that data, how that data is utilized, transparency, et cetera. 
These are things the industry is for and has to be for.
    We will not be a sustainable industry if we don't take care 
of our customers' data.
    Mr. Nadler. Now any--thank you.
    Anyone who lives near an airport, and certainly my 
constituents in New York who suffer from tourist helicopters 
buzzing in the sky, can tell you that noise pollution is a real 
problem. If commercial drone use increases substantially, as 
you envision, what sort of regulation should we put in place to 
protect against noise pollution and other nuisances caused by 
drones, particularly in residential neighborhoods?
    Mr. Wynne. Well, I think there's a good--a very robust 
conversation going on right now about where drones, the 
commercial drones would fly, what kind of flyways would be 
created, et cetera. One thing I'm absolutely certain of is they 
will make less noise than helicopters.
    Mr. Nadler. Well, that is not saying much.
    Mr. Wynne. This is a very robust conversation inside the 
helicopter community. Many helicopter operators would like to 
utilize drones because they are less expensive and somewhat 
more capable for certain kinds of missions and certainly safer 
than a 3,000-pound vehicle in the air.
    So, so I think we've got the same kinds of conversations 
going on that we always have in aviation. Noise abatement is--
is an extremely important topic, and it's one that will be. As 
we have more and more drones in the air, it will be----
    Mr. Nadler. You are going to have to deal with it. Thank 
you.
    Mr. Calabrese, in your testimony, you point out that 
Americans have a First Amendment right to take photographs of 
things visible--visible from public places, and you warn that 
some drone-specific privacy laws may run afoul of the First 
Amendment. Do you think the First Amendment poses a barrier to 
reasonable restrictions on how data collected by drones is 
used, stored, or shared?
    Mr. Calabrese. I don't think it's a barrier so much as 
something, a balancing that we need to do between our right to 
privacy and our right to the First Amendment. I think, as an 
initial matter, it's not the subject of this discussion, but 
certainly, we could require a warrant for law enforcement use. 
That has nothing to do with the First Amendment.
    Secondly, industry could adopt voluntary codes of conduct, 
and I urge them to do so. We're part of the NTIA process. That 
also would not violate the First Amendment.
    And then I think that there are non--you know, we can have 
neutral regulations that, for example, protect data or make 
people reveal exactly who was flying a drone, their privacy 
policies, all of those issues can obviously be addressed in a 
way that doesn't affect the First Amendment. But there are 
going to be some areas----
    Mr. Nadler. Yes, well, let me ask you a specific on that. 
You say that Americans have a First Amendment right to take 
photographs of things visible from public places?
    Mr. Calabrese. Correct.
    Mr. Nadler. Is 200 or 300 feet above my backyard, which is 
fenced in, a public place when that drone may be looking at my 
children playing in the backyard or my wife sunbathing there, 
or whatever?
    Mr. Calabrese. It's a very difficult question. I mean, 
there are some, obviously, privacy torts that would apply here, 
as well as the peeping tom laws. But I mean, it's worth 
remembering that the Rodney King video was shot from a balcony. 
You know, there are going to be places, times, when you are 
going to be above a fence, and things are going to happen, and 
they are going to have--deserve First Amendment protection. So 
it's not an easy question.
    Mr. Nadler. And finally, I think my--I see my time is 
running out. But what rights do an individual whose data is 
captured by a drone have to determine how this data is used, if 
any?
    Mr. Calabrese. Right now, very few rights.
    Mr. Nadler. Right, right. Let me rephrase the question. 
What rights should they have?
    Mr. Calabrese. I believe they should have the right to know 
what's being collected in most cases. They have the right, you 
know, and I believe that what we should do or I hope we can do 
is find a way to get all of these advantages, many of which 
have nothing to do with data collection about individuals, and 
then limit this data collection and agree to not collect it or 
not store it. So we can get all of this advantage without the 
privacy invasions.
    Mr. Nadler. Thank you.
    Mr. Issa. Thank you.
    We now go to the gentleman from Georgia, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    I think it is going to be a continuing thing, but I don't 
think there is very many probably on the panel that would not 
see the benefits of a drone and the benefits to business, 
benefits to many others. As someone in the military who 
actually also worked with them in Iraq, the benefits on the 
military are substantial.
    And I think the interesting issue, and I think it is going 
to be drumbeat by both sides here today, though, goes back to 
these issues of privacy, these issues of how we store, how we 
do these things. And I think, going off of what the gentleman 
from New York was just talking about, is really we are in a 
society today in which big data, big collections have sort of 
blurred those lines of what is a public--public or what is a 
reasonable expectation of privacy?
    We have been going through this for a while. In fact, 
Justice Sotomayor in U.S. v. Jones made an interesting 
statement. She quoted Justice Alito, ``As Justice Alito 
incisively observes, the same technology advances that have 
made both possible nontrespassory surveillance techniques will 
also affect the Katz test by shaping the evolution of societal 
privacy expectations.'' That is already happening now.
    And so, the questions that I want to go off of is, you 
know, the difference between one shot and a video, one picture 
as opposed to a tracking? How do we, you know, look at ongoing 
behavior? I think it is--and I would like to get--this will be 
a free for all. I will just let anyone jump in on this.
    Mr. Calabrese, if you want to start or wherever. It is a 
fine line here. I am out doing this, and I decide, well, I just 
want to give this to another agency. Or I want to share this. 
Where--where are we headed here with who can access this, and 
what is appropriate?
    Mr. Calabrese. It's a wonderful question. Thank you.
    Sir, clearly, the Supreme Court is grappling with this 
question of what I would call a mosaic whereas we're collecting 
so much information that we have a detailed profile about 
someone's life. That's something that we are very worried about 
in a wide variety of contexts and technologies.
    I think here there are so many beneficial uses that, 
hopefully, we can avoid the mosaic. I mean, if you go to Google 
Street View, you'll see people's faces are blurred. You know, 
there are ways that technology can also be used to protect 
privacy in data collection. Most of the uses that I've heard 
here are not things where someone wants to be invading 
someone's privacy in their backyard.
    And I would hope that what we can do is have industry agree 
that they're going to, for example, not create a pervasive 
surveillance, that they're going to discard information 
immediately that has nothing to do with what they are trying to 
accomplish so we can sort of avoid this pervasive surveillance.
    Mr. Collins. But what if they don't? I think that is the 
question.
    Mr. Calabrese. Right.
    Mr. Collins. And Mr. Polychron, from a realtor's 
perspective, I know there is a--you could see it sort of from a 
we are just looking at land or looking at this. But what if 
there is an action or a data kept that is breached? It is 
hacked. It is something that gets in, and we are keeping data.
    Why are we keeping data? How long are we keeping data that 
may or may not deal with realty or anybody else that wants to 
deal with this? I would like your perspective----
    Mr. Polychron. In other words, if they accidentally get 
something?
    Mr. Collins. It gets out there or is used. The data 
retention part is becoming the issue, and I think the concern I 
have, and again, looking at that, how do we protect against 
that and especially in light of a mosaic that is developing out 
there?
    Mr. Polychron. Well, you know, speaking from a realtor 
viewpoint, I mean, we have a code of ethics from 1908, which 
private property rights is the central tenet of that document. 
And I feel like realtors are going to respect privacy. I--the 
rules that we set to engage that I think are going to be very 
important.
    Mr. Collins. And I am--and I am dealing with realtors, a 
great realtor right now in some different areas, and I am not 
questioning the realtors. And I am also questioning the concern 
here is what about the retention? How long is that property pic 
used or that video used that could have something? Could it be 
turned over?
    Is that--you know, it is just a lot of issues. Mr. Karol, 
anything to weigh in on this? And I am just trying to get a 
good perspective here because it is an interesting issue.
    Mr. Karol. With respect to at least the commercial use by 
our members, the insurance members, we're focusing very hard on 
the technological side of that to capture data that is not 
personal information. If we're looking at hail damage to a 
roof, we're looking at technology that will capture 
spectrographic components of that roof to show damages and 
wouldn't capture images of people.
    And to try to define what is private and personal 
information and what is not private and personal information 
and to collect that for our commercial purposes to collect only 
that information in which relates to our business. We don't--we 
understand very highly the protections with respect to 
information on the financial side, and we want very strongly to 
avoid that.
    Mr. Collins. All right. Mr. Polychron, do you have 
something?
    Mr. Polychron. I was just thinking, I mean, bottom line is 
we're going to be taking pictures of houses----
    Mr. Collins. Mm-hmm.
    Mr. Polychron [continuing]. Primarily. We're--we're--I 
mean, I don't know----
    Mr. Collins. Well, I think you may have one of the more 
unique--and I am not going to, you know, say realty has this 
difference. I think it is just a blending of the whole, you 
know, issue and how do we deal with it going back to really 
right now on a Federal level you said mosaic, but there is 
just--there is a--the courts are having to piece together law 
as we go, and I think that is the concerning part here on how 
we go in with that.
    Mr. Chair, I know my time is up. But I will--much more we 
could describe it. I will yield back.
    Mr. Issa. You know, ending on the term ``mosaic'' is always 
a winner. [Laughter.]
    With that, we go to the gentlelady from California, Ms. 
Chu.
    Ms. Chu. Mr. Wynne, I want to ask you about a rather 
serious issue we are dealing with in California. We see several 
wildfires each year, and the severity ranges with each one. 
Some can be put out rather quickly without much harm, while 
others may destroy homes and even take lives.
    Combating the fire from the air is rather common. However, 
in recent years, firefighters have had to ground their aircraft 
because they see drones in the area. These aerial attacks are 
called off when the drones are spotted because the consequences 
of a collision are too great.
    So I wanted to know whether your organization has looked 
into this issue, and if so, do you think the FAA should address 
this?
    Mr. Wynne. Yes, ma'am, I sure do. And my son is a 
firefighter and, believe it or not, actually aspires to being 
in a place where he can fight wildland fires, which, 
unfortunately, is a growing business.
    I have phenomenal respect for people that fly and drop fire 
retardant on fires, not only doing something very useful and 
very valuable for public safety, but they're doing something 
that's highly, highly dangerous to do. So this is extremely 
important for us to get right.
    Anyone that puts an aircraft in danger, a manned aircraft 
in danger or any aircraft in danger, is violating FAA rules 
already. It's careless and reckless. And so, the FAA already 
has the capability of doing something about this today.
    In addition to that, in most instances for wildfires, 
there's a temporary flight restriction, TFR, put up around the 
fire, particularly when there's air operations going on. So 
anyone that's flying in that TFR that's unauthorized is 
automatically breaking the law, and they should be prosecuted 
for doing that.
    The irony here, ma'am, is that--is that, and there's a 
great YouTube video now from a wildfire, I believe in 
Washington State, just this past week where they were utilizing 
a UAS to look down on operations to make certain that they were 
putting their fire retardant in the right place. This 
technology can be used and will be used and is being used by 
firefighters to create greater situational awareness.
    It's a tremendous tool for the person that's in charge of 
that operation on the ground who's responsible for lives and 
property. So we want to be responsible users, and we want those 
who are flying recklessly and carelessly to be prosecuted.
    Ms. Chu. So the tool is already there to remove those 
drones or at least to prosecute against them in these wild----
    Mr. Wynne. I'm sorry, ma'am. I can't quite hear----
    Ms. Chu. The tool is already there?
    Mr. Wynne. Yes, ma'am. I believe they are.
    Ms. Chu. Okay. Mr. Polychron, you state that there is 
currently no standardized protocol for notice to bystanders 
before or during a drone flight, and this is a question about 
bystanders. And you asked the FAA to provide greater detail 
regarding what is expected of the drone operators when 
providing notice to and protecting the safety of individuals 
who are near the location of a UAS operation.
    So, in other words, a drone could be taking pictures, but 
there are bystanders that have not given their permission to be 
filmed, and so do you or the NAR have a suggested protocol that 
the FAA should consider?
    Mr. Polychron. I do not think we have a protocol at this 
time. I see your question. I understand your question. And I 
can certainly tell you I think we should.
    Ms. Chu. Mr. Calabrese or Wynne?
    Mr. Calabrese. I will just--I think that one of the things 
that we need to deal with as a baseline matter, which is sort 
of a privacy issue, but it's also a notice issue, is just 
knowing who's flying a drone, you know? And just having an 
ability to recognize and know whether that's the CNN drone or 
your realtor's drone, know where the data is going. And then 
you have the opportunity to contest it or say, ``I think that 
this was improperly collected of my private property'' and, you 
know, is a tort that maybe I can bring a civil suit.
    But the baseline is that I know the data collection 
practices. I know who is doing the collection. I know where 
it's going.
    Ms. Chu. Yes. And Mr. Calabrese, we have talked about the 
drone that can look into the backyard from 200 feet above. Of 
course, on the other hand, the human eye and the helicopters 
can be doing exactly the same thing. Should there be 
restrictions, and does the industry code of conduct developed 
by the Association of Unmanned Vehicles System International 
provide meaningful protections?
    Mr. Calabrese. I mean, with all due respect to AUVSI, I 
don't think that their current code does provide enough 
protection. And we can--and I hope that the industry will do 
more as part of the NTIA process.
    We're really concerned that drones are different than being 
in an airplane. They're just much less expensive. They have the 
potential, for example, if they're a blimp, to stay up much 
longer, and they have just the potential to be much more 
invasive.
    We're not picking on the technology. All technology can be 
good or bad, but this deserves some regulation.
    Ms. Chu. Thank you. I yield back.
    Mr. Issa. Thank you.
    We now go to the gentleman--oh, I am sorry. We now go to 
Mr. Marino. Thank you for being so prompt.
    Mr. Marino. Chairman, I am sorry. I was delayed longer than 
I thought I was going to be, and I am sure the questions I was 
thinking of asking are already asked.
    Mr. Issa. None of the good questions have been answered 
yet. They are all available to you.
    Mr. Marino. Okay. I will be very brief. Thank you.
    I apologize if this question was asked, but who are we 
going to put in charge of making certain that whoever--if I own 
a drone and I am out there flying it, who is responsible for 
having that information, and do we want people to have that 
information?
    As I read an article in the newspaper not too long ago, 
that there was a drone flying over a man's property while his 
teenage girl--daughter and her girlfriends were in the swimming 
pool. And the drone was hovering over, obviously, watching the 
girls. The guy went in and got a shotgun and shot it out of the 
air.
    Now he got arrested for that. I don't know the details of 
was it in the city or how it worked, but how do we keep people 
accountable for and know who has a drone if we are going to 
down that road? Anyone, please?
    Mr. Karol. I believe what he was arrested for was 
discharging the firearm in an area that was not allowed. I 
don't think he was charged with firing at the drone.
    But I think your question goes to the fundamental concept 
of the property rights because the property rights, to a large 
extent, decide the privacy rights. If the drone is where it's 
allowed to be by the property owner, then the privacy issue 
becomes substantially different than if it's not allowed to be 
there.
    So that if the property owner allows the drone to be on 
that property, that's one area. But if it's--and to some 
extent, it's very different if, for example, an insurance 
capability, if an adjuster is on the roof taking pictures of 
the damage from the roof, it's no different than if the drone 
is up there taking pictures.
    So that the property owner has given his permission and the 
access from that permission so that the privacy of that area is 
defended thereon.
    Mr. Marino. Mr. Wynne and Mr. Polychron--am I pronouncing 
that name correctly?
    Mr. Polychron. Polychron.
    Mr. Marino. Polychron, okay. I have a question that we 
wrote down. We know that while the FAA drags out the proposed 
rulemaking process, UAV innovation continues to move forward 
abroad. This not only hurts innovation in the drone industry 
itself, but the industries who would benefit most as well, two 
of which are critical in my district, agriculture and energy.
    Where do you believe the U.S. currently stacks up, and what 
impact could this drag have on our economy and jobs if the 
regulatory environment continues as it is, as it currently 
stands? So, Mr. Wynne and then----
    Mr. Wynne. I'm having a little difficulty hearing, sir. Was 
it the question was----
    Mr. Marino. I am sorry.
    Mr. Wynne [continuing]. Are we falling behind?
    Mr. Marino. Are we falling behind?
    Mr. Wynne. I think we are----
    Mr. Marino. Nicely put.
    Mr. Wynne [continuing]. To some extent. I don't think it's 
irreparable at this stage in the game. So it's not an argument 
that I'm fond of trotting out. We spend a lot of time working 
with our counterparts overseas, and ultimately, our objective 
is to have global harmonization of regulations around the 
world.
    So, so in some respects, if we could get the FAA to finish 
the rules that have been proposed, some ways we kind of zoom 
ahead of some countries that are out there, and I think that 
would allow us to unlock a great deal of value for a number of 
industries, including the energy sector and the agriculture 
sector, which I heard you refer to.
    Mr. Marino. Okay. And my last question. It was mentioned 
that the FAA has received more than 2,700 requests for 
exemptions to be able to fly drones, only 1,400 of which were 
granted in the absence of a finalized rule. What does this mean 
to us as far as moving ahead in the process? Anyone again?
    Mr. Wynne. Well, I think the significance of the numbers 
right now is that, you know, we're operating--we're regulating 
by exemption, and we'll never keep up. There is vastly more 
people out there, whether they're real estate--real estate 
brokers or--or large utility companies or insurance companies 
that want to fly.
    So we're just scratching the surface. There is a--I want to 
say a more bureaucratic process in place now than there will be 
once we have final regulations. But one way or the other, it's 
no way to regulate. We don't want to be regulating by 
exemption.
    We want to basically put the rules out there. We want to 
encourage certification of operators. We want to train 
operators. We want to stand up an aviation community here that 
can actually act safely and responsibly under FAA regulations.
    Mr. Marino. Sir?
    Mr. Polychron. I would like to add that from a realtor's 
standpoint, time is a deal killer. That's just a saying that we 
use in our business.
    Because only a few realtors are, you know, permitted to do 
this under the Section 333, it puts some of us at a 
disadvantage if we cannot present a listing in a manner that 
someone does. So from a competitive standpoint, time is of the 
essence.
    Mr. Marino. Okay. Thank you. And again, I apologize if 
these questions are already asked.
    And Chairman, thank you very much. You have been more than 
fair to me. I yield back.
    Mr. Issa. I thank the gentleman for yielding back, and we 
will take that extra time and go to the gentleman from 
Louisiana for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    And I guess I will kind of start where Mr. Marino went a 
little bit about who is flying the drone and not in terms of 
data collection, but about public safety. And we have dealt 
with this issue in homeland security also because the question 
arises, can an individual or law enforcement shoot down a drone 
if they determine that that drone is a safety risk?
    And the information we have, and I would like your opinion 
on it, is that law enforcement can't do anything with it 
because it is considered an aircraft. Is that consistent with 
what you all see and hear?
    Mr. Karol. I'll take a shot. My understanding is that the 
FAA rules prohibit the interference with an aircraft, but at 
the same time, at the State level, there are privacy rights. 
And under the basic restatement of torts, if something 
trespasses, you have the right to protect yourself.
    So, again, it goes to the central issue we have is it's not 
particularly clear to us which law would prevail there. Because 
the State law that says that you have the right to protect your 
own property supersede the FAA's interference with an aircraft 
provision. It's very difficult to understand.
    Mr. Richmond. Well, I will tell you the testimony that we 
heard, and the example was if a drone was flying over a high 
school football game and law enforcement could not determine 
whether it was adversarial or just a hobbyist flying a plane 
over. And their comment was if we found out it was adversarial, 
we do not have the permission to take it down.
    And I guess I am giving you all that charge because I think 
as we push Government to rush to some sort of rules, we have to 
also look at the safety concerns that are there also. You can 
go on YouTube right now, and you can look at a Russian assault 
rifle attached to the drone that they sell in Sam's Club, and 
it is shooting mannequins.
    And the question for me while we rush to get things to 
market in all due speed, to make sure that we have policies 
that also protect our families. So when we were--and I started 
getting interested when you started talking about the ability 
to know who is flying the drone. And maybe that technology 
about who is flying the drone can help us in terms of knowing 
where they are and help us decipher some other intentions.
    So I just want us to think about that because from a 
homeland security standpoint, we are absolutely terrified in 
the position of how do we protect mass gatherings and other 
things when we start talking about unmanned aircrafts and not 
only the privacy concerns, but the safety.
    And Mr. Karol, just with the 10th anniversary of Katrina, I 
just can't help but to say I would be very excited about using 
unmanned aircraft to assess property damage so that you all 
could get the information very quickly. I would also be in 
favor of you delivering the checks that way, too---- 
[Laughter.]
    So that people could get them in a very quick manner. But I 
think what my biggest charge to you all, then I will yield back 
the rest of my time, is that I think that industry is going to 
have to get together and figure out some parameters because, as 
Government makes the rules, we can't make them fast enough to 
keep up with technology.
    And we are going to have to find a balancing act between 
the commercial interests, public safety, public privacy, and 
all of those things. And I think that if we can get the 
interested parties at the table to really start digging into 
that, it may help us along in terms of how quickly we can get 
to a comfort zone.
    Because I will just tell you--and my colleague Ms. Jackson 
Lee from Texas is also on Homeland--we have very--we have a lot 
of unreadiness coming from Homeland Security Committee in terms 
of the safety of unmanned aircrafts and how we protect our 
citizenship. So, hopefully, you all can help us in that 
respect.
    And with that, Mr. Chairman, I will yield back.
    Mr. Issa. I thank you.
    We now go to the gentlelady from Washington, a tech leader 
in her own right, Ms. DelBene.
    Ms. DelBene. Thank you, Mr. Chair.
    And thanks to all of you for being here with us today.
    Mr. Wynne, you talked about a code of conduct, and Mr. 
Calabrese, you also talked about the code of conduct and also 
kind of the Know Before You Fly program. Could you describe in 
a little more detail what is in the code of conduct, and also 
Know Before You Fly, what is made up as part of that program?
    Mr. Wynne. I'd be happy to provide our code of conduct for 
the record, ma'am. And, but the--by and large, we've covered 
that a little bit in my earlier--I mean, at the end of the day, 
it's really about common sense.
    There's--you know, I think, by and large, as I indicated, 
this is an industry that recognizes that if it doesn't fly 
safely and responsibly, it will not be sustainable. We will 
have all kinds of challenges not only at the Federal level, but 
at every State level and potentially at the municipal level.
    We do have a code of conduct. You know, the word 
``potential'' is being used a lot on this panel. Potential for 
this, the potential for that. I would urge us not to try and 
solve, you know, create solutions for problems that don't yet 
exist. But I would commit to you that this--I represent a 
community that will fly safely and responsibly, and as our code 
of conduct needs to be strengthened, it will be strengthened.
    One of the reasons why we need regulations from the FAA is 
because we need more trained operators out there. As with 
aviation, it is a self-policing community. We do not tolerate 
careless and reckless behavior. If I see someone doing 
something careless and reckless with an aircraft, I report 
them. I talk to them, and I report them.
    Know Before You Fly is a campaign that was largely stood up 
in conjunction with the Academy of Model Aeronautics and the 
FAA to train nonaviators, which are the people that anyone can 
now walk into an Apple store and buy a drone and go fly. But 
that doesn't mean that they're in a place where they should.
    So the whole idea is to try and train people about where 
it's appropriate to fly and where it's not appropriate to fly. 
And there are an increasing number of tools that are available 
to the general public and to nonaviators, things that I just 
have on my iPad already, which would allow me to look at and 
see how far am I from an airport, for example, and so forth.
    There is also technology that is coming into these 
different devices that will help for, you know, to make certain 
that the device won't fly----
    Ms. DelBene. Yes, I was going to ask you about that. So you 
could use technology to limit, using GPS and other things, to 
limit where a device was able to go. Are folks looking at 
implementing that type of technology so that even if you wanted 
to, you couldn't go, for example, into airspace that is--that 
is off limits?
    Mr. Wynne. That's never a substitute for airmanship and 
education. But those technologies increasingly are going to be 
leveraged going forward. They can also be disabled by people 
who wanted to do that.
    So, again, it's important to have trained operators out 
there. And increasingly, not only will our community have its 
own code of conduct and its own safety best practices, but 
every single industry that's utilizing this technology will be 
doing the same thing.
    Ms. DelBene. Mr. Calabrese, any comment?
    Mr. Calabrese. Yeah, I think it's important to say that we 
don't have codes of conduct that are really robust yet. And 
clearly, we need them. And I think there's a great example is 
the delivery aspect of drones, right?
    No one sees a lot of data collection need in the delivery 
of things. I mean, there may be some, but it's relatively 
limited. So why don't we find ways that we can constructively 
say we may have drones all over the place in 5 years delivering 
my packages, but none of them are going to be collecting data. 
Or if they are, we have the flexibility to say it's immediately 
deleted.
    So, you know, we're not trying to be overly prescriptive. 
CDT believes in the power of technology to make things better. 
But we also believe that we have to be responsible about the 
data we collect, and so a lot of these industries, and we've 
already heard that, can do more to collect less, if you will. 
And so, I think we all need to push for codes that do that, and 
Congress needs to step in if they don't.
    Ms. DelBene. Well, we know that we are behind on some laws, 
even things like Electronic Communications Privacy Act. So we 
have a lot of work to do to make sure our laws are up to date 
with the way technology works, and this is another place where 
we want to make sure we support innovation, but also make sure 
we protect privacy and safety.
    And that is why I think it is very, very important that we 
continue to work hard on all these efforts so that we have--we 
understand there are incredible uses like agriculture or 
wildfires, as you brought up, in Washington State. We have--
there are important uses, but we also have to make sure we have 
consumer protections in place as well.
    Thank you, Mr. Chair. I yield back.
    Mr. Issa. I thank the gentlelady.
    We now go to my colleague and seatmate on many airplane 
flights from California, Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman.
    You know, this expectation of privacy thing is I feel like 
I am in a really complicated law school exam. But let me first 
ask about wildfires, just to follow up on Ms. Chu.
    Has someone talked about the balance between interfering 
with firefighting and the ability to assist with firefighting 
and how that might be arbitrated? Anybody?
    So I am sorry. So in terms of the use of UAS, we have 
already seen instances where they have interfered with, you 
know, people are looking, interfering with firefighting. There 
has been a number of efforts. I think those are more simple to 
deal with restricting the use of these vehicles in the course 
of a wildfire.
    Has someone--are you aware of any efforts or any models, 
you think, to talk about how it is useful to use these 
implements or this equipment in the course of helping with 
firefighting?
    Mr. Wynne. As I indicated, there are firefighting 
departments that are already embracing and leveraging the 
technology, but it has to be authorized use. You know, if 
there's an air boss at a site, then, you know, they're going to 
leverage that technology.
    If someone gets in the air that's not in positive control 
of the air boss, that's a problem.
    Mr. Peters. Is it in process with the FAA? Do you know that 
those discussions are taking place now?
    Mr. Wynne. Well, you know, I've discussed this with the 
Administrator. You know, at this point, if there is a TFR up, 
we just--you know, it's a little bit like the campaign about 
the Super Bowl, right?
    Mr. Peters. Right.
    Mr. Wynne. It was a very successful campaign because nobody 
flew at the Super Bowl.
    Mr. Peters. Right. Okay.
    Mr. Wynne. We were discussing the potential for doing 
things at--you know, broader for sporting events, not unlike 
the problem with laser pointers. There's got to be a very 
targeted campaign, no pun intended. And now there is a very 
good campaign--If You Fly, We Can't--by those that are fighting 
wildfires. And that's, you know, whatever is in the air. They 
need to be in control of it----
    Mr. Peters. Right.
    Mr. Wynne. - when it's inside of that space.
    Mr. Peters. Let me go back to Mr. Marino's swimming pool 
example. I think it is a little bit different when you think 
about expectation of privacy to envision someone looking at you 
from a balcony rather than high above the sky. And is it were 
you just going to expand expectation of privacy so that there 
is no expectation of privacy? Is that what is going to happen?
    Mr. Calabrese. I certainly hope not. I've spent my whole 
career trying to avoid that outcome, and I do think the 
technology allows you to be more invasive, and so you need to 
be--you need better protections. The reality is that the First 
Amendment makes this hard.
    I mean, we have First Amendment protections. You can take 
video from a public place. That's--that is a cherished First 
Amendment value, and we just never had a circumstance where you 
could take so much video and keep it forever. And I think----
    Mr. Peters. From a place where you are not even visible.
    Mr. Calabrese. What's that?
    Mr. Peters. From a place where you are not even visible to 
the person being filmed.
    Mr. Calabrese. And there are--there are tricky First 
Amendment questions there. So I guess what I would say is we 
look at privacy torts. We look at things like peeping tom laws. 
We start there. Then we look at data collection generally and 
whether we can, for example, create technologies where you can 
geotag a space and say, ``No drones allowed in this space.''
    Mr. Peters. Yes.
    Mr. Calabrese. And then, you know, keep people out. So 
there are ways that we have to try to do this, but we do have 
to navigate the First Amendment.
    Mr. Peters. So here is another question that occurred to 
me, just the two of you gentlemen talking about your two 
proposed--or your two issues, is suppose, you know, you have 
real estate agents flying around. There is no intention on 
their part to be deleting this data, but they're also filming 
swimming pools at the same time.
    Mr. Calabrese. Certainly I just would say to Mr. Polychron, 
given that the realtors have said pretty clearly they don't 
want to photograph people, maybe it becomes we have a code----
    Mr. Polychron. Yeah, let me go a step further. In our code 
of ethics, there is also, of course, we protect----
    Mr. Peters. Is your microphone on, sir?
    Mr. Polychron [continuing]. Their information, and data is 
very private. So at the same time, I know that our staff is 
working with the NTIA to try to establish an industry standard.
    When I spoke earlier to Mr. Marino, we haven't done that 
yet, but we are working on it. So we are very cognizant of 
privacy and always have been and will continue to be.
    Mr. Peters. But that doesn't really--that doesn't answer 
what the standard is going to be and how you are going to come 
to--how you come to balancing that. I mean, you are going to--
you want to capture pictures of real estate. I mean, I suppose 
there are ways to delete----
    Mr. Polychron. It is not our intent to take pictures of--
let's just say we would love to take a picture of that swimming 
pool while no one's there. But I don't think----
    Mr. Peters. Good luck this week in San Diego finding a 
swimming pool with nobody in it. So----
    Mr. Polychron. Or in Arkansas, as far as that goes. But you 
can do that.
    Mr. Peters. Okay. All right. Well, thank you, Mr. Chairman. 
I yield back.
    Mr. Issa. I thank the gentleman.
    We now go--we are on a California roll. We now go to the 
gentlelady from just north of our districts, Ms. Lofgren.
    Ms. Lofgren. Well, thank you.
    I think this has been a very useful hearing. Getting back 
to the security/privacy question, what--what is the industry 
doing, either, you know, the association or the realtors, to 
make sure that the data that is collected is encrypted and 
secure from hacking?
    Mr. Polychron. As I just stated, in our code of ethics, our 
data and information is very private. And I would go a step 
further to tell you that if I had a client and I was abusing 
this privilege, they wouldn't be my client very long.
    Ms. Lofgren. Well, I don't mean--certainly I don't question 
your intent. The question really is about the technology. Is 
your data encrypted or not?
    Mr. Polychron. Encrypted from what standpoint? Just----
    Ms. Lofgren. Well, you can encrypt data so that it can only 
be opened with a key. Is it encrypted, or is it kept open in 
the----
    Mr. Polychron. Well, I mean, when you look at the data of a 
listing, I mean, you know, I'm going to----
    Ms. Lofgren. No, no, what you are collecting.
    Mr. Polychron. You're going to be able to look at it on 
Realtor.com or Zillow as well, a lot of that information. So it 
can't be encrypted.
    Ms. Lofgren. Well, yes, it could, and then you could----
    Mr. Polychron. Well, I mean right now.
    Ms. Lofgren. And you could selectively make available--if 
you get pictures of, you know, people in a pool, you are not 
going to delete that necessarily. But you are not going to make 
it available because you want--you know, you respect. I don't 
question your ethics at all. I am just asking about the 
technology.
    Mr. Karol. I can speak for the insurance industry at least. 
What has been done so far is predominantly the capture of 
single pieces of property--of data from that single pieces of 
property in a unit underneath the UAS, which is then directly 
loaded into the systems of the insurance company, which is not 
open to anyone else.
    So that there is no distribution of that data. It's used 
internally for appraisal values and damage assessment. So 
there's no--there's no openness to that system that would 
require any sort of encryption to prevent any problem.
    Ms. Lofgren. Well, I question that because look at the 
number of, well, material that was supposed to be secure but 
was hacked, and when it was hacked, it was available because it 
wasn't encrypted, including, unfortunately, a lot of 
information--sensitive information that the Government held 
that was supposed to be secure.
    Mr. Calabrese. Yeah, I mean, CDT certainly believes that we 
do need encryption between the device----
    Ms. Lofgren. Well, I was going to ask about that, too.
    Mr. Calabrese. Right, yeah. I mean, it's between the 
aircraft and the operator that the information needs to be 
encrypted so it can't be intercepted so the control of the 
aircraft itself can't be taken over by someone else. I mean, 
clearly, encryption needs to be a best practice.
    It seems like maybe we've got a ways to go before we get 
that--get there in terms of how the devices are operating now.
    Ms. Lofgren. It sounds like we do. In terms of--that was 
the other question, I guess, for the association. What--is the 
control encrypted, and is there authentication between the 
control link of the operator and the vehicle?
    Mr. Wynne. I'm going to say yes because there is a strong 
desire, a requirement really, to keep the control in one place. 
So, you know, this is probably point number one, the 
reliability, the fidelity of the link is also extremely 
important and as well as building in safeguards, in fact, if 
that connection is lost. But we don't want anyone hacking that 
link.
    Ms. Lofgren. Right. Do you know that is there an industry 
standard? Or if I go down to the Apple store and buy a drone, 
is the link between the controller and the unit authenticated 
and encrypted, do you know? I mean, is----
    Mr. Wynne. I'm going to--I can't answer that question 
specifically, but I will follow up for the record with an 
answer.
    Ms. Lofgren. Okay. I just think that there are a lot of 
difficult questions that have been gone through, and some of 
these questions are policy, but the implementation of that 
policy is going to be technological. And you know, so often, we 
think about the technological protections after the fact, and 
it would be really super to think about them before the problem 
occur in this instance.
    And I am going to yield back because we are going to have 
votes in 10 minutes, and I want my colleague----
    Mr. Issa. And with one intermission, he will be next. With 
that, we go to the gentleman from Texas, Mr. Poe.
    Mr. Poe. I thank the Chairman.
    Thank you all for being here.
    Mr. Calabrese, it is good to see you again. Thanks for 
coming to Houston during our privacy forum, and thank you for 
your work on the Preserving American Privacy Act that I am a 
sponsor and Ms. Lofgren is the cosponsor on the minority side.
    Privacy is an issue with me. Technology in the United 
States is the best, I think, in the world, especially even in 
this area, and we are moving faster than anyone ever thought, 
at least I thought we would, in the area of drones.
    We have had the issue of drones pending in the Judiciary 
for a while, a year at least. We have the domestic use of 
drones regarding private companies and people, and then we have 
Government use of drones. And we leave all of this drone 
regulation up to the FAA, of all people, to decide who gets a 
drone and when they get a drone.
    Do you think that we should let a Government agency 
determine and determine the Fourth Amendment right of privacy, 
whatever it means? Mr. Calabrese?
    Mr. Calabrese. Well, of course, we're strong supporters of 
your bill. So I think you already know the answer. The central 
tenet of your legislation, at least from our perspective, is, 
you know, get a warrant to use a drone if you're the police. 
And we think that is a constitutional standard that has, you 
know, long served us and should continue to be the standard.
    So when it comes to law enforcement use, and I think that 
is a lot of the public concern in this area, we should have a 
warrant standard. It doesn't mean that we don't have exceptions 
for things like exigency and emergencies and, you know, hot 
pursuit and consent. But the standard should, by and large, be 
a warrant-based standard.
    I think that deals with a lot of the problems on the law 
enforcement side, and then, you know, once we've dealt with 
that and once the Government is not going to kick down your 
door, then we can take on some of these other thornier 
questions about commercial data collection and getting the 
right standards in place for that.
    Mr. Poe. My question is should we just let the FAA deal 
with this? And then the courts decide years from now was this a 
violation or not of the Fourth Amendment when the police or a 
private citizen using a drone got information? Should we just 
let the courts decide? I mean, that is what we hear around here 
all the time. Let the courts decide.
    Mr. Calabrese. Yeah, no. Congress. Congress should step in. 
Clearly, they have a constitutional role in this process, and I 
don't think the FAA is going to feel like it has the ability to 
dictate Fourth Amendment standards to local law enforcement, 
and I think that's why Congress needs to make clear right now 
what the right standard is.
    Mr. Poe. I agree with you. I think that Congress has an 
obligation to set the standards, the rules, whatever they are, 
protect the right of privacy, but also put everybody on notice 
what the rules are, what the law is.
    I would think that the folks in the drone industry would 
like to know when and when they cannot use one of these even in 
civilian areas. And I think that is our obligation, along with 
the other privacy issues that are pending that we have not 
resolved as well.
    In your testimony, you mention now that 16 States have 
privacy laws regarding drones. What about letting the States 
just make up their mind? What is privacy in Texas may not be 
privacy in California or whatever. So should we just let all 50 
States and the territories make the decision as to drone 
regulation regarding the issue of privacy?
    Mr. Calabrese. You know, that's a tough question. I mean, 
I--some of the--some of the State laws have been really 
progressive. Some of them have raised concerns, frankly, around 
First Amendment issues. I think CDT believes that until we get 
the floor of a search warrant across the country, Americans 
won't have the privacy they deserve from Government access to 
their personal lives. So I think that's the standard.
    Whether it comes to the States or the Federal Government I 
think is less important, though I think the way things are 
going right now, we really are going to need a Federal fix.
    Mr. Poe. Congress sets the right of privacy, whatever 
expectation of privacy is, makes it law, and then everybody is 
on notice. And for the record, I am a big supporter of the use 
of drones. Everybody just needs to know what the rules are, but 
Congress needs to come up with what the rules are.
    And I will yield back to the Chairman.
    Mr. Issa. I thank the gentleman.
    We now go to another gentleman from Georgia, Mr. Johnson, 
for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    In addition to insurers and realtors and retailers like 
eBay, you know, you got law enforcement, all of these 
operations using drones. And you have even got hobbyists out 
there who have their drones. And so, everybody is participating 
in the use of drones in the airspace, and it creates--in 
addition to privacy issues, it creates safety issues and other 
areas of interest.
    It is an important issue that needs to be regulated. Now 
the problem that we have here in Congress is that we are in the 
midst of an anti-regulatory crusade. There are those who adhere 
to the Grover Norquist philosophy of making Government so small 
that you can strangle it in the bathtub. In other words, people 
who don't believe that Government, that the Federal Government 
should be involved in anything other than the defense of the 
Nation. Everything else left up to the States and the private 
sector.
    And speaking of Grover Norquist, in the 114th Congress, 218 
Republicans, that is just one over the number it takes to 
constitute a majority in the House of Representatives. So they 
can pass whatever they want to pass. Two hundred eighteen have 
signed onto the Grover Norquist ``no new tax money'' pledge, 
and 49 in the Senate have done so, just shy of a majority.
    And so, we are in the midst of an anti-regulatory, anti-
Federal Government binge among those who are in control, and 
that bumps up against this 2012 order for us. We knew it was 
coming. We knew all of these segments would be flying drones. 
We knew what was coming, but yet what did we do?
    We passed the Budget Control Act of 2011, the Ryan Budget 
Control Act, the Republican Budget Control Act, sequestration, 
cutting 10 percent for year after year. And so, if that is not 
stifling the private sector as it seeks to develop the drone 
business, I can't think of anything--I don't know what else is 
stifling the private sector.
    And then we are hearing on this very Committee, we--during 
this same session of Congress, we are doing everything we can 
to gum up the regulatory workings of Government. We don't want 
the Government to issue the regulations.
    We have passed out of this Committee what is called the 
REINS Act, which purports to rein in an out-of-control 
Government seeking to over regulate, when we know we don't have 
the regulations that we need in this particular area that you 
all are here concerned with. We voted out the ALERRT Act. Both 
of these acts would essentially stop the rulemaking process.
    So while we are having this hearing and we are talking 
about the need for the rules, overall, we are doing everything 
we can to not do anything in this area. And so, what is at risk 
is the health, safety, and welfare of the citizens, and it is 
also the ability of our country to compete on a global level.
    Mr. Wynne, do you agree that these budget cuts have 
prevented the expansion of private industry?
    Mr. Wynne. Congressman, I certainly agree that this is a 
community that's asking for regulation, and Congress has 
mandated that this area be regulated.
    Mr. Johnson. We are working at cross purposes with that 
objective. Mr. Calabrese, how do you see it?
    Mr. Calabrese. I have to admit I'm not familiar with the 
REINS Act. So I can't really comment on its----
    Mr. Johnson. Well, but you do understand the financial 
implications of the--of the Ryan Republican Budget Control Act 
of 2011, do you not?
    Mr. Issa. The time of--the gentleman's time has expired, 
but to the extent that you are very familiar with that, you may 
answer. [Laughter.]
    Mr. Calabrese. I am going to take the opportunity to pass 
on that. Sorry, Mr. Johnson.
    Mr. Johnson. Well, I know it is a difficult question to 
answer, but I think we----
    Mr. Issa. It is perhaps too complex for a drone hearing.
    Mr. Johnson. Well, I do think we must look at things 
overall. We must look at it holistically. What is the role of 
the Federal Government in the affairs of the Nation? I think 
that is basically the overarching issue, and right now, our 
Government is gummed up with gridlock. We can't even pass a 
budget for the next fiscal year, 2016.
    We are going to put it all on the line because we want to 
defund Planned Parenthood. So while we have these important----
    Mr. Issa. Would the gentleman wrap up this? The gentleman's 
time has expired.
    Mr. Johnson. I will, and I appreciate the Chairman's 
ability to let me speak. And so, with that, I think I have made 
my point, and I will yield back.
    Mr. Issa. I thank the gentleman. He did make his point.
    And with that, I would like to make my point. So, Mr. 
Karol, if you would pick up that piece of Styrofoam. I am not 
going to ask you to estimate the exact weight, but does it 
weigh practically nothing in your hand?
    Mr. Karol. Practically nothing.
    Mr. Issa. Okay, and the rest of it is here balanced on this 
pencil, and I am going to guess it weighs a pound and a half, 2 
pounds. We have been talking about a lot of things here. I 
think Mr. Calabrese or, actually, Mr. Wynne I am going to start 
with, aren't we talking about a multitude of different products 
here? I just want to go through it.
    We are talking about things like this, which are really, 
they are the equivalent of the toy that we all grew up with, 
extremely lightweight, really doesn't--couldn't get over 400 
feet, can't go a long distance. Notwithstanding that it might 
have a camera mounted on it, this is, in fact, an extension of 
what children grew up with, remote controls that were available 
50 years ago. Is that right?
    Mr. Wynne. Well, I don't think so, actually. I think it 
looks a little bit like what my son used to play with, but 
honestly, it's a little bit like the difference between a plug-
in phone and an iPhone.
    Mr. Issa. Well, but and I want to make sure I get to the 
point, which is--and Mr. Karol, I started with you--from a 
safety standpoint, the damage that this product would do from a 
safety standpoint, if it falls on your roof and so on, is 
substantially similar perhaps to what that old little alcohol-
fired plane that I grew up flying would do, right?
    Mr. Karol. That particular drone, yes, sir.
    Mr. Issa. Okay. So the first question we have to ask is are 
we addressing products based on their risk of safety, right, is 
something that your company deals with?
    Mr. Karol. That's correct, Mr. Chairman.
    Mr. Issa. Okay. And the second one, of course, is the FAA. 
And I heard a lot of comments. I don't know how many pilots are 
in the room. If there are, they are all better pilots than I 
am. But for four decades, I have been flying, nearly. And 
during those years, the one thing I knew was that my floor was 
500 feet.
    And the ceiling of these products is 400 feet, and there is 
a reason for that, which is that I am not allowed to come down 
except by an airport into the remote control toy airspace, and 
these products, if they want to remain unregulated, have to 
stay below where I am allowed to fly. Again, reasonable safety 
standard today.
    Is that correct, in your estimation?
    Mr. Karol. I think for that particular aircraft, yes. But I 
think that there are many other different aircrafts.
    Mr. Issa. Right. And we are talking about heavier aircraft, 
the 30-pound, 40-pound drone is still covered by the 400-foot 
lid. But there is a different question of if it falls. So I 
want to go through a number of quick questions.
    Mr. Calabrese, you are not an advocate of the status quo. 
That is a given. But let me ask a couple of questions. Today, 
the realtors, or association represented by Mr. Polychron next 
to you, if they have the permission of the owner and they fly 
only over the owner's airspace or ground space, unless they 
have the waiver for commercial use, they are breaking the law.
    Flying this product or one very similar over somebody's own 
private property with their permission, they have to get a kind 
of a weird exemption that says they can use it for commercial 
purposes. It takes time. They have to describe in detail.
    Wouldn't you agree that the private use or even the 
commercial use over one's own property is an example where 
perhaps the Government needs to weigh in and say you know what, 
commercial use with the owner's permission in which you are 
only flying over their land, we never should have had 
regulations over it. Is it really any different than if I raise 
a balloon up that has a camera on it?
    And I would just like to get your comments on it because I 
want to try and divide the concerns we all have with a question 
of are we even approaching this based on intrusion into my 
privacy versus the right of a landowner to regulate what goes 
on in their own area?
    Mr. Calabrese. So certainly from a privacy point of view, 
and I can't speak to the safety issues, you've always had the 
ability to consent to sort of essentially your own--giving up 
your own personal information, and I think it probably is an 
appropriate--I'm sure I could think of a fact pattern where it 
wasn't the case.
    But by and large, you can certainly make a case that that 
falls under consent and that collection is appropriate. You 
know, typically, the drones are not limited in that way. So 
that makes it harder. But certainly, that's a place to start.
    Mr. Issa. Sure. Well, and I am going to ask you to answer 
sort of on behalf of realtors. If in the near future, the FAA 
looks and says if a commercial use is only over somebody's own 
property, now that would include I am a farmer. I am flying it 
over my own property. But that is a commercial use when I do 
so. If I am exclusively flying over my own property, taking my 
own risk and so on, do I need a commercial waiver or, in fact, 
should we take those out and eliminate the bureaucracy of it?
    And in your case, if you are only photographing and flying 
over the property of the client, if you will, is there really 
any reason in your estimation that that isn't a consent for 
these products? And let us assume for a moment we are talking 
about the 30-pound aircraft and below.
    Mr. Polychron. I would concur explicitly that I would want 
the right to do that, yes, sir.
    Mr. Issa. Okay. And I am going to close fairly quickly, 
even though there is nobody else left. But with just a couple 
of quick questions.
    Mr. Calabrese, you had a lot of concerns. Let us talk about 
privacy for a moment. I am going to ask you because this 
Committee does have beyond the commercial questions of this 
hearing, we certainly are the Committee of people's civil 
rights and people's constitutional rights, including privacy.
    These vehicles, large and small, represent a cheap and easy 
extension of a problem that is as old as the Brownie instamatic 
camera, isn't it?
    Mr. Calabrese. Yes.
    Mr. Issa. And we are dealing with something where, in your 
estimation, I am leading you, but that this Committee should 
look at a privacy questions, and my question to you in a more 
open format is should we look at them, assuming that these are 
going to make it pervasive. But should we look at them equally 
based on, if you will, the body camera, this product, the man 
who simply has a hillside and a telephoto lens that looks down 
on your backyard?
    Should we be looking at those holistically, and should this 
Committee begin to look at that in light of, if you will, the 
pervasiveness of high-resolution, long-range capable cameras?
    Mr. Calabrese. Certainly the Committee should explore all 
the new technologies. I mean, that's something that we've 
talked about for a while. I mean, a great example of this is--
that we haven't talked so much about is stingray devices that 
can capture cell phone and can be used to learn your location 
from your cell phone.
    Mr. Issa. We have been working pretty good on those in 
Congress.
    Mr. Calabrese. Yeah, they're--yeah, you're making some 
headway. You're definitely raising some attention.
    So I do think that all of these need to be addressed. I 
don't think they all need to be addressed together. I mean, I 
think that's a very big bite. And nor are they all the same. 
They don't raise the same issues.
    So I guess I would encourage Congress to continue to look 
at some of these different things. Mr. Poe's bill, I think, is 
a great way to say let's have the warrant standard for 
Government access, and then we can, again, deal with some of 
the trickier issues around how private collection happens.
    Mr. Issa. Okay. And I am going to follow up quickly on the 
warrant, and if somebody else wants a second round, I am going 
to give them that until the bell rings.
    But you mention warrant, and that is an area of interest to 
me. Let us assume for a moment that police have a myriad of 
good reasons and other law enforcement, safety, and so on to 
fly, just to see what is happening. In other words, to be in 
the air to see if there is a fire, to be in the air for other 
reasons, and that those reasons are broadly in the public 
interest. Would you agree that that can happen?
    Mr. Calabrese. Sure.
    Mr. Issa. So, again, this Committee, the Committee of the 
Constitution, you suggested that we look at it. You mentioned 
Judge Poe's bill. Aren't you also in a sense saying that we 
need to address the question of if you collect it through other 
purposes, but you are law enforcement, public safety, that you 
are perfectly willing to collect it. But you have still got to 
get a warrant and recollect it in order to be able to use it.
    Is that sort of implied in yours that we will collect all 
the time, but the question of, for example, knocking on the 
door is a question of, jeez, somebody reported that we saw 
something. What is the basis then to enter the home?
    Because this is going to happen. There is no question at 
all you are going to have drones in the air on behalf of public 
safety.
    Mr. Calabrese. So there's a lot there. Thank you for the 
opportunity to address it.
    I think, first of all, talking about non-law enforcement 
use is not talking about warrant. So if we're talking about how 
the police--or excuse me, how like a firefighter can use a 
drone, we're talking about Government use, but not law 
enforcement use, and I don't think we're talking about a 
warrant.
    I do think that we can see exceptions to the warrant 
requirement. So if you're flying for, for example, in a public 
place and you see a criminal activity or you see a fleeing 
suspect, you can continue to follow them the same way law 
enforcement could continue to follow them. We have clear rules 
around exigency there.
    We also could, I think, see some exceptions for if we had a 
suppression remedy, for example. So I'm a law enforcement. I'm 
looking for a missing person. I'm not looking for criminal 
conduct, and I happen to find some.
    If there is a clearly defined non-law enforcement, but 
police activity, you may be able to do that collection. It may 
fall under an exception or may or may not be admissible in 
court. I mean, there are fine gradations that we have to have 
here.
    So I don't want to oversimplify the issue, but I do think 
that given the ability and the possibility of persistent long-
term surveillance, something I think the public rightly fears, 
they should have the security of when they see that drone up 
there, knowing that the police have gotten a neutral third-
party judge to approve that kind of surveillance on them and 
that there's a good reason for it.
    Mr. Issa. Thank you. And I am going to quickly close with a 
story.
    Last weekend, I was at my home in the backyard, and a drone 
flew over, and it hovered over my backyard. Now as far as I 
could tell, it is a Phantom 3 Professional. And it had a camera 
onboard, nicely stabilized, and it hovered over exactly where 
it could see me. And then it went away, and I jumped up, 
followed it, found that one of my neighbors had a friend, a 
very adult friend, who had flown it on this mission.
    I have no idea what he is going to do with it. Being a 
politician, I am going to assume that it will show up 
somewhere, some day, somehow. What was interesting for me was I 
know how easily violated people feel when there is a camera 
that is no more able to track me than across a ravine, somebody 
with a long-range camera would, but it felt very personal.
    So as a Member of one of the Committees that has been 
called on to have a likely series of hearings on this, I want 
to make it clear today was about commercial, and I brought up 
one of the many points of are there exemptions where we can 
carve some of the commercial out so that we take that out of 
the clutter. And we start viewing some of the issues that are 
particularly important to Mr. Marino, as a former prosecutor, 
and others on the Committee, and we start dealing with the 
privacy, the warrant questions and so on, that come from it.
    So although this hearing was limited in scope, I want to 
thank you all for helping us expand our understanding and, of 
course, probably define some of the future areas of other 
hearings of this Committee.
    I want to ask all of you if you have additional comments or 
statements, I will keep the record open for 5 remaining days so 
that you can add supplemental material and would also ask that 
if we receive any questions, would you be glad to respond to 
those in writing from Members that were not able to be here 
today?
    I want to thank you for the answer in the affirmative, and 
looking left and right, we stand adjourned.
    [Whereupon, at 4:44 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

    Prepared Statement of the Motion Picture Association of America
    The Motion Picture Association of America is excited to be on the 
forefront of small unmanned aircraft system innovation. The MPAA has 
worked closely with the Federal Aviation Administration and sUAS 
operators to secure cinematography as among the first approved 
commercial applications of unmanned aircraft in the United States. 
Incorporating sUAS in domestic film and television production is not 
only safely advancing aerial photography and helping tell stories in 
new and exciting ways. It is also starting to generate the economic 
benefits that the technology can bring our country by reducing costs 
and keeping film productions here at home rather than sending these 
jobs overseas.
    As the voice of the motion picture, home video and television 
industries, the MPAA submits this statement on behalf of its members: 
Paramount Pictures Corp., Sony Pictures Entertainment Inc., Twentieth 
Century Fox Film Corp., Universal City Studios LLC, Walt Disney Studios 
Motion Pictures, and Warner Bros. Entertainment Inc. The film and 
television industry is currently employing sUAS under exemptions the 
FAA granted vendors to use the aircraft in scripted, closed-set 
filming. The controlled nature of our sUAS use greatly limits exposure 
to the general public, minimizing any safety or privacy concerns.
    When the first handful of sUAS operators received exemption 
approval from the FAA last year at this time, Senator Dodd, MPAA's 
Chairman and CEO, called the announcement ``a victory for audiences 
everywhere as it gives filmmakers yet another way to push creative 
boundaries and create the kinds of scenes and shots we could only 
imagine a few years ago.'' The MPAA and its members look forward to the 
continued development of this budding sector of the film industry as we 
work with the FAA to establish formal rules allowing the continued use 
of sUAS in domestic movie and television production.
    Filming with sUAS is already authorized abroad and we have now 
built a positive safety track record here at home, having completed a 
growing number of successful flights. One of the small businesses we 
work with that received an exemption from the FAA in September 2014, 
has already completed more than 60 film projects to date totaling more 
than 1,200 successful flights. Advancing such domestic use will help 
keep production revenues from leaving our shores, promote jobs, expand 
the U.S. aviation industry, and provide real-world experiences in 
controlled environments to help pave the way for other uses of sUAS.
    Looking ahead, we asked the FAA earlier this year in the formal 
rulemaking proceeding to allow additional flexibility, such as night 
flying, for filming in controlled environments as technology advances. 
We are in the initial stages of sUAS cinematography in the United 
States and, as use grows, the capabilities of the systems will likely 
evolve rapidly and beyond what we can predict now.
    We thank Chairman Issa and Ranking Member Collins and the other 
members of the Committee for their attention to this matter. We are 
excited to continue our work to further integrate the use of sUAS into 
domestic film and television productions, and are eager to see how the 
creative minds of our industry use the technology to the benefit of 
audiences around the world.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
